Case: 1:19-cv-00014-MPM-DAS Doc #: 83 Filed: 07/23/20 1 of 9 PageID #: 1354
30a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF MISSISSIPPI
ABERDEEN DIVISION
ETHAN HOGGATT, ET AL.

PLAINTIFFS

V.

NO: 1:19CV14-MPM-DAS

ALLSTATE INSURANCE, ET AL.

DEFENDANTS

ORDER
This cause comes before the court on Defendant Allstate’s motion to dismiss [30] and
Defendants Andy Dyson’s and Suzanne Hand’s motion to dismiss [32]. The court, having
considered the memoranda and submissions of the parties, and relevant authority, is now prepared
to rule.
Factual Background
In March 2018, Plaintiff Ethan Hoggatt totaled his Toyota Yaris “through no fault of his
own when a 17 year old girl pulled out and hit him near cross-town in Tupelo.” Compl. at 8. Ethan
maintained an insurance policy with Allstate through Defendant Andy Dyson’s agency. Id.
Plaintiffs allege that Ethan called the agency after his car was totaled and was told by
Defendant Suzanne Hand “that he should keep Defendant Allstate’s insurance policy, as if he
cancelled his policy and bought another car, he couldn’t obtain Allstate insurance for six months.”
Compl. at 8.1 The Complaint alleges that “Mrs. Hand . . . stated that Ethan . . . would have insurance
coverage, at a reduced price” and that “Ethan . . . agreed” to purchase the policy. Id. at 9. The new

The Complaint states that “[w]hether . . . Mrs. Hand’s statement is true or only premeditated fraud . . . is
unknown.” Compl. at 9. Plaintiffs further assert that another Allstate employee, Alicia Alvarez, told Ethan that
Defendant Hand’s statement “was wrong” and “‘they shouldn’t have told him that.’” Id. at 23, 29.
1

APPENDIX D

1

Case: 1:19-cv-00014-MPM-DAS Doc #: 83 Filed: 07/23/20 2 of 9 PageID #: 1355
31a
policy he obtained was considered a comprehensive policy, which did not cover damage caused
by collision. Ex. A [5-1] at 2.
According to the Complaint, Plaintiffs claim that Allstate sold Ethan “dummy insurance
coverage” because they knew he “owned no vehicle whatsoever” and subsequently “drafted each
automatic insurance payment by wire from [his checking account].” Compl. at 9. Plaintiffs further
state that Ethan “reasonably believed that this less expensive ‘insurance coverage’ that he carried,
meant he was insured if he drove someone else’s vehicle, and stated so to his parents.” Id. at 9.2
Stated differently, Ethan alleges he “reasonably believed that this insurance policy follow[ed] the
individual.” Id.
On September 15, 2018, Ethan was involved in a second car accident. This accident
occurred while he was driving his parent’s Toyota Corolla. Compl. at 10. Plaintiffs allege that
Ethan filed a claim the same day and spoke with Allstate personnel regarding his policy and the
policy held by his parents. Id. at 11.3 Allstate ultimately refused to cover the accident under Ethan’s
comprehensive policy. Id. at 11, 23.
Plaintiffs further claim that Dr. Hoggatt “reasonably believed” Ethan’s representations that
he had his own Allstate policy, it was valid, and would cover the accident that involved the Corolla.
Compl. at 10, 25.4
Ethan and Dr. Hoggatt filed the instant suit in December 2018, alleging fraud under
Mississippi state law and violation of the Racketeer Influenced and Corrupt Organizations

2

Dr. Eric Hoggatt, who is also a named plaintiff, is Ethan’s father. Compl. at 2.

At the time of the accident, it appears the Corolla was insured under a separate policy held by Ethan’s parents.
Compl. at 11.
3

The Complaint also contains facts regarding the Hoggatt’s dispute with the towing company (Homans Garage)
used following Ethan’s accident in the Corolla. The Homan Defendants were dismissed from this suit by joint
stipulation. See [35]. Thus, for the sake of brevity, this court will not discuss facts related to such dispute.
4

2

Case: 1:19-cv-00014-MPM-DAS Doc #: 83 Filed: 07/23/20 3 of 9 PageID #: 1356
32a
(“RICO”) Act, along with vague references to “attempted extortion by use of the United States
Mails, reprehensively and willfully committed with [b]ad [f]aith,” gross negligence, and
“[w]antonness causing [i]ntentional, wholly unnecessary, and [e]gregious [i]nfliction of [m]ental
[d]istress.” Compl. at 2.
Briefly, this court notes that the claims against Allstate, agent Dyson, and employee Hand
appear to be based on employee Hand’s statement to Ethan that he “could not obtain Defendant
Allstate [i]nsurance for six months if he cancelled his insurance policy” and its refusal to cover the
accident in the Corolla. Compl. at 23-26. They argue primarily that Ethan was sold insurance
coverage that insured “nothing” and that both Plaintiffs relied on Ethan’s mistaken belief that his
comprehensive coverage followed the driver, not the vehicle, when Dr. Hoggatt decided to allow
Ethan to drive the Corolla. Id. at 25. Accordingly, they state that Allstate owes Dr. Hoggatt a
replacement vehicle because, if not for what they deem to be a “dummy policy,” Dr. Hoggatt
would still have a vehicle. Id. at 26. Plaintiffs also seek injunctive relief and damages. Id. at 30,
34.
Standard
Before the court can grant a motion to dismiss, a defendant must show that the plaintiff has
not met the relevant pleading standard to state a claim. Specifically, a defendant must show that
the plaintiff’s complaint fails to “state a claim to relief that is plausible on its face.” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (citing Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
A claim is facially plausible “when the plaintiff pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable for the misconduct alleged” Id. In making this
determination, the court must view all facts and inferences in the light most favorable to the
nonmoving party. Romero v. City of Grapevine, 888 F.3d 170, 176 (5th Cir. 2018).
APPENDIX D
3

Case: 1:19-cv-00014-MPM-DAS Doc #: 83 Filed: 07/23/20 4 of 9 PageID #: 1357
33a
Discussion
Defendant Allstate and Defendants Dyson and Hand have filed separate motions to dismiss,
but in the interest of judicial economy, this Order will address both motions together. The court
will begin with the allegations of fraud.5
a. Plaintiffs’ fraud claim fails.
Plaintiffs herein have asserted a fraud claim against Defendants. To establish a fraud claim
in Mississippi, a plaintiff must prove: (1) a representation; (2) its falsity; (3) its materiality; (4) the
speaker’s knowledge of its falsity or ignorance of its truth; (5) his intent that is should be acted on
by the hearer and in the manner reasonably contemplated; (6) the hearer’s ignorance of its falsity;
(7) his reliance on the truth; (8) his right to rely thereon; and (9) his consequent and proximate
injury. Koury v. Ready, 911 So. 2d 441, 445 (Miss. 2005).
Assuming the facts in the Complaint are true and construing them in the light most
favorable to Plaintiffs, this court finds Plaintiffs have not sufficiently pled a fraud claim.
To begin, counsel for Defendants argue that Plaintiffs have failed to adequately plead a
materially false representation. According to the Complaint, Plaintiffs allege that Allstate
employee Hand told Ethan that “if he canceled his policy and bought another car, he couldn’t
obtain Allstate insurance for six months,” but as Defendants posit in their brief, the Complaint
states that is it is “unknown” whether this statement “is true or only premeditated fraud.” Compl.
at 8-9.6 Rather, the Complaint states, in more conclusory fashion that representations made to
“Ethan and Mrs. Hoggatt by Defendants Allstate were false.” Id. at 25. The court takes note of this

Though counsel for the defense offers multiple arguments concerning the deficiencies in Plaintiffs’ pleadings, this
court limits its discussion to those mentioned herein, as they are clearly dispositive of Plaintiffs’ claims.
5

This court notes that Plaintiffs’ response [40] to the motions to dismiss pleads that employee Hand’s statement was
false. Resp. at 3.
6

4

Case: 1:19-cv-00014-MPM-DAS Doc #: 83 Filed: 07/23/20 5 of 9 PageID #: 1358
34a
discrepancy, but will not grant the motion solely on this basis.
This court does agree, however, with Defendants’ argument concerning the reliance
prongs. Even if the court were to construe the Complaint to include an allegation of a materially
false statement, it is clear that Plaintiffs have not pled facts to justify reliance on the alleged false
statement. Indeed, “an essential element of any claim of fraud or misrepresentation is reasonable
reliance.” Ballard v. Commercial Bank of Dekalb, 991 So. 2d 1201, 1207 (Miss. 2008). The
Complaint alleges that both Ethan and Dr. Hoggatt “reasonably believed” that Ethan’s insurance
policy would cover him if he drove his parents’ vehicle, but such reliance is not reasonable. Indeed,
Defendant Hand is alleged to have told Ethan that he could not obtain Allstate insurance for six
months if he canceled his policy. Plaintiffs do not allege that Defendant Hand made any
representation that his new policy would cover collision damage to a non-owned vehicle.
Further, Mississippi law is clear that “reliance on representations by an insurance agent
that contradict the policy language is unreasonable.” Leonard. Nationwide Mut. Ins. Co., 499 F.3d
419, 438 (5th Cir. 2007). As Defendant Allstate’s briefing notes, Ethan agreed to purchase a
comprehensive policy from Allstate following his accident in the Yaris and that policy
unambiguously indicated that it did not cover vehicle collisions. Mem. at 10. Further, the policy
clearly excluded from coverage any non-owned vehicles available for regular use by the policy
holder. Id. at 10-11. “As a matter of law, one may not reasonably rely on oral representations,
whether negligently or fraudulently made . . . which contradict the plain language of the
documents.” Ballard, 991 So. 29 at 1207. Thus, even if Defendant Hand had made representations
concerning coverage that related to a non-owned vehicle, Plaintiffs herein have pled no facts to
suggest, for example, that the underlying contract Ethan agreed to purchase was altered by
Defendant Hand’s statement or that Ethan was denied access to a copy of the policy.

5

Case: 1:19-cv-00014-MPM-DAS Doc #: 83 Filed: 07/23/20 6 of 9 PageID #: 1359
35a
Given the above, this court finds that Plaintiffs have not pled facts sufficient to establish
reasonable reliance upon Defendant Hand’s statement. Indeed, no fact even vaguely suggests that
Defendant Hand made any statement to Ethan (or Dr. Hoggatt) that would cause either Plaintiff to
believe that a comprehensive policy would cover the collision costs of a non-owned vehicle. The
policy Ethan agreed to purchase also made no such representations. Rather, it appears to this court
that the facts suggest only that Ethan had a mistaken belief concerning the coverage afforded by
his new policy. Plaintiffs’ fraud claim cannot survive Defendants’ 12(b)(6) motion and will thus
be dismissed.
b. Plaintiffs’ RICO claim fails.
Plaintiffs have also asserted a civil RICO claim. RICO “makes it illegal for an individual
to use the proceeds of racketeering activity in a business that engages in interstate commerce.”
Snow Ingredients, Inc. v. SnoWizard, Inc., 833 F.3d 512, 523-24 (5th Cir. 2016) (citing 18 U.S.C.
§ 1962)). “To establish a civil-RICO claim, a plaintiff must establish three common elements: (1)
a person who engages in (2) a pattern of racketeering activity, (3) connected to the acquisition,
establishment, conduct, or control of an enterprise.” Id. (internal citations omitted).
Even if this court were to assume that Plaintiffs’ allegations of fraud (whether by mail or
wire) constituted a pattern of racketeering activity, Plaintiffs herein have failed to plead a RICO
enterprise and “the existence of an enterprise is an essential element of a RICO claim.” Bonner v.
Henderson, 147 F.3d 457, 459 (5th Cir. 1998). Notably, “officers or employees of a corporation,
in the course of their employment, associate[ing] to commit predicate acts does not establish an
association-in-fact enterprise distinct from the corporation.” Whelan v. Winchester Production
Co., 319 F.3d 225, 229 (5th Cir. 2003). “[A]lleged predicate acts committed . . . in the ordinary
course of business d[o] not, as a matter of law, demonstrate the existence of a separate enterprise

6

Case: 1:19-cv-00014-MPM-DAS Doc #: 83 Filed: 07/23/20 7 of 9 PageID #: 1360
36a
for the purposes of § 1962(c).” Warnock v. State Farm Mut. Auto. Ins. Co., 833 F. Supp. 2d 604,
611 (S.D. Miss. June 15, 2001) (internal quotations omitted).
Plaintiffs’ Complaint alleges that predicate acts (mail and wire fraud) were committed
through Allstate, Dyson, and Hand. Compl. at 24-25. Thus, they plead that Allstate, an Allstate
agent, and an employee, are the persons comprising the RICO enterprise. The law is clear,
however, in stating that Plaintiffs cannot establish a RICO claim with allegations that Allstate
associated with its own insurance agents and employees to commit the underlying acts giving rise
to such claim. See, e.g., Whelan, 319 F.3d at 229. Indeed, Plaintiffs allege that “Mrs. Hand . . . did
not think up the ‘keep the insurance policy’ arrangement herself, to sell to Defendant Allstate
customers, but the reasonable inference is that she had been so instructed, and such deceptive sales
of dummy ‘insurance coverage’ may be routine by the Defendant Allstate Agencies elsewhere.”
Compl. at 25. But the Complaint makes no mention of any involved person other than Allstate, its
agents, and employees.
Furthermore, a RICO enterprise must be separate and distinct from the pattern of activity
alleged to underlie the RICO claim. Whelan, 319 F.3d at 229. Plaintiffs herein have alleged mail
and wire fraud via contracting for an insurance policy. Compl. at 25. They plead no facts to suggest
Allstate and its employees were engaged in any activity apart from the selling of insurance.
Accordingly, Plaintiffs have failed to sufficiently plead the existence of a RICO enterprise, and
their RICO claim will be dismissed.
c. Plaintiffs’ remaining claims fail.
Finally, Plaintiffs’ Complaint vaguely references the following causes of action:
“attempted extortion by use of the United States Mails, reprehensively and willfully committed
with [b]ad [f]aith,” “gross negligence,” and “[w]antonness causing [i]ntentional, wholly

7

Case: 1:19-cv-00014-MPM-DAS Doc #: 83 Filed: 07/23/20 8 of 9 PageID #: 1361
37a
unnecessary, and [e]gregious [i]nfliction of mental distress.” See Compl. at 2, 26.
Accepting Plaintiffs’ allegations as true, the court finds that the Complaint lacks sufficient
facts to support such claims against Defendants. Indeed, this court is not aware of a cognizable
civil cause of action for extortion under Mississippi law, and it does not appear that Plaintiffs have
referenced any such law.7 To the extent Plaintiffs base an intentional infliction of emotional
distress, gross negligence, or bad faith claim on their interactions with Allstate, Dyson, and Hand,
Plaintiffs’ assertions to that effect appear conclusory and are not supported by the facts in the
complaint. Thus, to the extent Plaintiffs intend to assert these claims against Defendants, these
claims are dismissed.
Finally, this court notes that Plaintiffs were given two opportunities to respond to
Defendants’ motions to dismiss.8 See [40], [78].9 In their second response, Plaintiffs reference case
law suggesting that if “a more carefully crafted complaint might cure any deficiencies, the district
court must first give the plaintiff an opportunity to amend his complaint.” [78] at 4 (internal
quotations omitted). However, the response offers no persuasive explanation concerning how they
intend to cure any of the deficiencies outlined herein. This court thus finds that no further
amendment is warranted. Indeed, Plaintiffs filed a motion to amend their Complaint earlier in this
action, which was denied. See [59]. This court has reviewed that request and finds such motion
and proposed amended complaint did not seem to cure the problems presented in the original
pleadings discussed herein. Accordingly, any further amendment would be futile.

To the extent extortion is being alleged as part of Plaintiffs’ RICO allegations, this claim similarly fails for the
reasons discussed herein.
7

8

Plaintiffs’ response [61] was withdrawn. See [77].

9

It should be noted that Plaintiffs spent ample time in their responses accusing defense counsel of filing their
motions to dismiss for purposes of “delay, retaliation, and obstruction.” See [78] at 2.

8

Case: 1:19-cv-00014-MPM-DAS Doc #: 83 Filed: 07/23/20 9 of 9 PageID #: 1362
38a
Conclusion
No claims made by Plaintiffs are viable as a matter of law. Based on the foregoing, this
court finds that Plaintiffs have failed to plead sufficient facts to raise the claims alleged herein.
Defendants’ motions to dismiss [30] and [32] are GRANTED and Plaintiffs’ claims are dismissed
with prejudice. As such, this case is CLOSED.
SO ORDERED, this the 23rd of July, 2020.
/s/ Michael P. Mills
UNITED STATES DISTRICT JUDGE
NORTHERN DISTRICT OF MISSISSIPPI

9

